20. APPLICABLE LAW — The terms and enforcement of this
Agreement shall be governed by federal law and the law of
Georgia.
21. ENFORCING THIS AGREEMENT — We can delay in
enforcing or fail to enforce any of Our rights under this
Agreement without losing them.
22. COLLECTION COSTS — If We refer collection of Your
Account to a lawyer who is not Our salaried employee, You
are liable for any reasonable attorney’s fees We incur, plus the
costs and expenses of any legal action, as further disclosed
on this Agreement, or to the extent allowed by law.
23. ASSIGNMENT — We may assign any or all of Our rights
and obligations under this Agreement to a third party.
24. CALIFORNIA RESIDENTS — A married applicant may
apply for a separate Account. Applicants: 1) may, after credit
approval, use the credit card Account up to its credit limit;
2) may be liable for amounts extended under the plan to any
joint applicant. As required by law, You are hereby notified
that a negative credit report reflecting on Your credit record
may be submitted to a credit reporting agency if You fail to
fulfill the terms of Your credit obligations.
25. FLORIDA RESIDENTS — You (borrower) agree that,
should We obtain a judgment against You, a portion of
Your disposable earnings may be attached or garnished
(paid to Us by Your employer), as provided by Florida and
Federal law.
26. MARYLAND RESIDENTS — To the extent, if any, that
Maryland law applies to Your Account, We elect to offer Your
Card Account pursuant to Title 12, Subtitle 9 of the Maryland
Commercial Law Article.
27. MISSOURI RESIDENTS — Oral Agreements or
commitments to loan money, extend credit or to forbear
from enforcing repayment of a debt including promises to
extend or renew such debt are not enforceable. To protect
You (borrower(s)) and Us (creditor) from misunderstanding
or disappointment, any Agreements We reach covering
such matters are contained in this writing, which is
the complete and exclusive statement of the Agreement
between Us, except as We may later agree in writing to
modify it.
28. NEW YORK RESIDENTS — We may obtain a credit report
in connection with this Account, including for any review,
modification, renewal or collections associated with this
Account. Upon Your request, You will be informed whether
such report was requested and, if so, the name and address
of the consumer reporting agency furnishing the report.
New York residents may contact the New York State
Department of Financial Institutions at 800.342.3736 or
www.dfs.ny.gov to obtain a comparative listing of credit card
rates, fees and grace periods.

Page 8

(continued)

29. OHIO RESIDENTS — The Ohio laws against discrimination
require that all creditors make credit equally available to all
creditworthy customers and that credit reporting agencies
maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers
compliance with this law.
30. SOUTH DAKOTA RESIDENTS — If You believe there have
been any improprieties in making this loan or in the lender’s
loan practices, You may contact the South Dakota Division of
Banking at 1601 N. Harrison Ave, Suite 1, Pierre, SD 57501,
or by phone at 605.773.3421.
31. WISCONSIN RESIDENTS — If You are married, please
contact Us immediately upon receipt of this Agreement at
the address or phone number listed on this Agreement and
provide Us with the name and address of Your spouse. We
are required to inform Your spouse that We have opened an
Account for You.
32. NOTICE TO UTAH BORROWERS — This written
Agreement is a final expression of the Agreement between
You and the Credit Union. This written Agreement may not be
contradicted by evidence of any oral Agreement. As required
by law, You are hereby notified that a negative credit report
reflecting on Your credit record may be submitted to a credit
reporting agency if You fail to fulfill the terms of Your credit
obligations.
33. THE FOLLOWING IS REQUIRED BY VERMONT LAW
— NOTICE TO CO-SIGNER — YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR
REPAYMENT OF THIS LOAN. IF THE BORROWER DOES NOT
PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM
YOU.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us
at the address listed on Your statement.
In Your letter, give Us the following information:
- Account information: Your name and Account
number.
- Dollar amount: The dollar amount of the suspected
error.
- Description of problem: If You think there is an error
on Your bill, describe what You believe is wrong and
why You believe it is a mistake.
You must contact Us:
- Within 60 days after the error appeared on Your
statement.
- At least three business days before an automated
payment is scheduled, if You want to stop payment
on the amount You think is wrong.
Page 9

(continued)

You must notify Us of any potential errors in writing or
electronically. You may call Us, but if You do We are not
required to investigate any potential errors and You may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell
You that We received Your letter. We will also tell You
if We have already corrected the error.
2. Within 90 days of receiving Your letter, We must
either correct the error or explain to You why We
believe the bill is correct.
While We investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or
report You as delinquent on that amount.
- The charge in question may remain on Your statement,
and We may continue to charge You interest on that
amount.
- While You do not have to pay the amount in question,
You are responsible for the remainder of Your
balance.
- We can apply any unpaid amount against Your credit
limit.
After We finish Our investigation, one of two things will
happen:
- If We made a mistake: You will not have to pay
the amount in question or any interest or other fees
related to that amount.
- If We do not believe there was a mistake: You
will have to pay the amount in question, along
with applicable interest and fees. We will send
You a statement of the amount You owe and the
date payment is due. We may then report You as
delinquent if You do not pay the amount We think
You owe.
If You receive Our explanation but still believe Your bill
is wrong, You must write to Us within 10 days telling Us
that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone
to whom We reported You as delinquent, and We must let
those organizations know when the matter has been settled
between Us.
If We do not follow all of the rules above, You do not have
to pay the first $50 of the amount You question even if Your
bill is correct.

Your Rights if You Are Dissatisfied With Your Credit Card
Purchases
If You are dissatisfied with the goods or services that You
have purchased with Your credit card, and You have tried
in good faith to correct the problem with the merchant, You
may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in Your home
state or within 100 miles of Your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if Your purchase was based on an advertisement We
mailed to You, or if We own the company that sold
You the goods or services.)
2. You must have used Your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses Your credit card Account
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied
with the purchase, contact Us in writing or electronically at
the address listed on Your statement.
While We investigate, the same rules apply to the disputed
amount as discussed above. After We finish Our investigation,
We will tell You Our decision. At that point, if We think You
owe an amount and You do not pay, We may report You as
delinquent.

3900 Crown Road
Atlanta, GA 30380-0001
(404) 768-4126 • (800) 849-8431
Fax: (404) 669-2750
E-mail: info@apcu.com
Website: www.apcu.com

CONSUMER CREDIT
CARD AGREEMENT
AND DISCLOSURE
VISA
This Consumer Credit Card Agreement and Disclosure
together with the Account Opening Disclosure and any other
Account opening documents or any subsequent documents
provided to You related to this Account (hereinafter
collectively referred to as “Agreement”) govern the terms
and conditions of this Account. “We,” “Us,” “Our” and “Ours”
and “Credit Union” refers to Atlanta Postal Credit Union with
which this Agreement is made. “You,” “Your,” and “Yours”
refers to each applicant and co-applicant for the Account;
any person responsible for paying the Account; and anyone
You authorize to use, access or service the Account. “Card”
means the Visa® credit card and any other access devices,
duplicates, renewals, or substitutions, including convenience
checks, the Credit Union issues to You. “Account” means
the line of credit established by this Agreement and includes
Your Card.

© CUNA Mutual Group 1991, 2006, 09,
10, 12, 14, 16 All Rights Reserved

Page 10

(continued)

Page 11

01000038MXC323-C-1052021

56793-31-1

SECURITY INTEREST
You grant the Credit Union a security interest under
the Uniform Commercial Code and under any common
law rights the Credit Union may have in any goods You
purchase.
If You give the Credit Union a specific pledge of shares by
signing a separate pledge of shares, Your pledged shares
will secure Your Account. You may not withdraw amounts
that have been specifically pledged to secure Your Account
until the Credit Union agrees to release all or part of the
pledged amount.
You grant Us a security interest in all individual and joint
share and/or deposit accounts You have with Us now and
in the future to secure Your credit card Account. Shares
and deposits in an IRA or any other account that would
lose special tax treatment under state or federal law if
given as security are not subject to the security interest
You have given in Your shares and deposits. You may
withdraw these other shares unless You are in default.
When You are in default, You authorize Us to apply the
balance in these accounts to any amounts due. For
example, if You have an unpaid credit card balance, You
Page 1

(continued)

agree We may use funds in Your account(s) to pay any or
all of the unpaid balance.
Unless otherwise prohibited by federal and/or state law,
collateral securing other loans You have with the Credit
Union may also secure this loan, except that a dwelling
will never be considered as security for this Account,
notwithstanding anything to the contrary in any other
Agreement.
1. USING YOUR ACCOUNT — By using the Account or
keeping the Card, You agree to the terms of this Agreement.
You agree to use Your Account in accordance with this
Agreement. Your Account must only be used for lawful
transactions.
2. CREDIT LIMIT — We may establish a credit limit as part
of this Agreement, which You promise not to exceed. If You
exceed the credit limit, You promise to repay immediately the
amount which exceeds the credit limit, including amounts
due to finance charges, fees or other charges. You may
request a credit limit increase on Your Account only by a
method acceptable to the Credit Union. We may increase or
decrease Your credit limit, refuse to make an advance and/or
terminate Your Account at any time for any reason permitted
by law.
3. CONVENIENCE CHECKS — We may, from time to time,
issue convenience checks to You that may be drawn on Your
Account. Convenience checks may not be used to make a
payment on Your Account. If You use a convenience check,
it will be posted to Your Account as a cash advance. We
reserve the right to refuse to pay a convenience check drawn
on Your Account for any reason and such refusal shall not
constitute wrongful dishonor. You may request that We stop
the payment of a convenience check drawn on Your Account.
You agree to pay any fee as identified in this Agreement
imposed to stop a payment on a convenience check issued
on Your Account. You may make a stop payment request
orally, if permitted, or in writing. Your request must be made
with sufficient time in advance of the presentment of the
check for payment to give Us a reasonable opportunity to act
on Your request. In addition, Your request must accurately
describe the check including the exact Account number, the
payee, any check number that may be applicable, and the
exact amount of the check. If permitted, You may make a stop
payment request orally but such a request will expire after
14 days unless You confirm Your request in writing within
that time. Written stop payment orders are effective only for
six months and may be renewed for additional six month
periods by requesting in writing that the stop payment order
be renewed. We are not required to notify You when a stop
payment order expires.
If We re-credit Your Account after paying a check over a valid
and timely stop payment order, You agree to sign a statement
describing the dispute with the payee, to assign to Us all of
Your rights against the payee or other holders of the check
and to assist Us in any legal action.
Page 2

(continued)

You agree to indemnify and hold Us harmless from all costs
and expenses, including attorney’s fees, damages, or claims,
related to Our honoring Your stop payment request or in
failing to stop payment of an item as a result of incorrect
information provided to Us or the giving of inadequate time
to act upon a stop payment request. Note: A convenience
check is not a check as that term is defined under the Uniform
Commercial Code. It is an advance from Your credit card
Account with Us and Your stop payment rights are provided
under this Agreement with Us.
4. REPAYMENT — You promise to repay all amounts You
owe under this Agreement. Your promise to repay includes
all transactions made to Your Account by You or anyone You
authorize to use Your Account as well as all interest charges
and fees.
For each billing period, You must pay at least the Minimum
Payment Due by the Payment Due Date.
The Minimum Payment Due is 2.00% of Your total New
Balance, or $10.00, whichever is greater, plus any amount
past due and any amount by which You have exceeded Your
applicable credit limit. If Your total New Balance is less than
$10.00, then Your Minimum Payment Due is the amount of
the total New Balance.
You may pay more frequently, pay more than the Minimum
Payment Due or pay the total New Balance in full.
If You make extra or larger payments, You are still required
to make at least the Minimum Payment Due each month Your
Account has a balance (other than a credit balance). The
Credit Union may delay replenishing Your credit limit until the
date the payment is posted or the Credit Union confirms the
payment has cleared.
Your payment of the required Minimum Payment Due may be
applied to what You owe the Credit Union in any manner the
Credit Union chooses, as permitted by applicable law. If You
make a payment in excess of the required Minimum Payment
Due, the Credit Union will allocate the excess amount first
to the balance with the highest annual percentage rate
(“APR”) and any remaining portion to the other balances in
descending order based on applicable APR, unless otherwise
prescribed by applicable law. We may accept checks marked
“payment in full” or with words of similar effect without
losing any of Our rights to collect the full balance of Your
Account with Us.
5. INTEREST AND FINANCE CHARGES — We will begin
charging You interest on purchases on the date the
transaction is posted to Your Account. We will begin charging
You interest on cash advances and balance transfers on the
date of the transaction or the first day of the billing cycle in
which the transaction is posted to Your Account, whichever
is later (transaction date). However, We will not charge You
any interest on new purchases if Your Account had a zero
or credit balance at the beginning of that billing cycle, or
You paid the entire new balance on the previous cycle’s
billing statement by the Payment Due Date of that statement.

To avoid an additional finance charge on the balance of
purchases, You must pay the entire new balance on the
billing statement by the Payment Due Date of that statement.
How We Calculate Your Balance:
Interest charges on Your Account are calculated separately
for purchases, balance transfers and cash advances
(“Transaction Type”). We figure the interest charge for
each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average
daily balance” for a Transaction Type We take the beginning
balance for that Transaction Type each day, add any new
transactions of that type, and subtract any unpaid interest
or other finance charges and any applicable payments or
credits. This gives Us the daily balance for each Transaction
Type. Then, for each Transaction Type, We add up all the
daily balances for the billing cycle and divide each total by
the number of days in the billing cycle. This gives Us the
“average daily balance” for each Transaction Type.
6. FEES — In addition to the periodic rate, additional fees
may be imposed on Your Account. If applicable to Your
Account, the fee amounts and explanations are disclosed
on the Account Opening Disclosure accompanying this
Agreement.
7. FOREIGN TRANSACTIONS — Purchases and cash
advances made in foreign currencies will be debited from
Your Account in U.S. dollars. The exchange rate between
the transaction currency and the billing currency used for
processing international transactions is a rate selected by
Visa from a range of rates available in wholesale currency
markets for the applicable central processing date, which
rate may vary from the rate Visa itself receives, or the rate
mandated by the government or governing body in effect for
the applicable transaction date. The exchange rate used on
the transaction date may differ from the rate that would have
been used on the processing date or cardholder statement
posting date.
For APCU Visa Platinum, Affinity Rewards – UPMA, Affinity
Rewards – A-Plus, Affinity Rewards – NRLCA, APCU
Credit Builder, Center Parc Credit Builder, APCU Low
Rate, and Center Parc Low Rate programs. A fee (finance
charge), calculated in U.S. dollars, will be imposed on all
foreign transactions, including purchases, cash advances,
and credits to Your Account. A foreign transaction is any
transaction that You complete or a merchant completes on
Your Card outside of the United States, with the exception of
U.S. military bases, U.S. territories, U.S. embassies, or U.S.
consulates. Transactions completed by merchants outside
of the United States are considered foreign transactions,
regardless of whether You are located inside or outside the
United States at the time of the transaction. The Foreign
Transaction Fee is set forth on the Account Opening
Disclosure accompanying this Agreement.

8. AUTHORIZATIONS — We do not guarantee authorization
of a transaction, either by Us or by a third party, even if You
have sufficient credit available. You agree that We will not
be liable for failing to give an authorization. We also reserve
the right to limit the number of transactions that may be
approved in one day. We reserve the right to deny certain
transactions for any reason and at Our sole discretion,
including for default, suspected fraudulent or unlawful
activity, internet gambling or any indication of increased risk
related to the transaction or the Account. You agree that We
have no requirement to notify You of the specific reason We
denied a transaction. If We detect unusual or suspicious
activity, We may suspend Your credit privileges until We can
verify the activity, or We may close the Account.
9. INFORMATION
UPDATING
SERVICE
AND
AUTHORIZATIONS — If You have authorized a merchant
to bill charges to Your Card on a recurring basis, it is Your
responsibility to notify the merchant in the event Your
Card is replaced, Your Account information (such as Card
number or expiration date) changes, or Your Account is
closed. However, if Your Card is replaced or Your Account
information changes, You authorize Us, without obligation
on Our part, to provide the updated Account information to
the merchant in order to permit the merchant to bill recurring
charges to Your Card. You authorize Us to apply such
recurring charges to Your Card until You notify Us that You
have revoked authorization for the charges to Your Card.
Your Card is automatically enrolled in an information
updating service. Through this service, Your updated Account
information (such as Card number or expiration date) may
be shared with participating merchants to facilitate continued
recurring charges. Updates are not guaranteed before Your
next payment to a merchant is due. You are responsible for
making direct payment until recurring charges resume. To
revoke Your authorization allowing Us to provide updated
Account information to a merchant, please contact Us.
10. PREAUTHORIZED CHARGES — We may suspend
preauthorized recurring charges with merchants if, for
example, Your Card is lost or stolen, You default, or We
change Your Account for any reason. If preauthorized
recurring charges are suspended, You are responsible for
making direct payment for such charges until You contact
the merchant to reinstate recurring charges.
11. DEFAULT — You will be in default under this Agreement
if You fail to pay the Minimum Payment Due by its Payment
Due Date; pay by a check or similar instrument that is
not honored or that We must return because it cannot be
processed; pay by automatic debit that is returned unpaid;
make any false or misleading statements in any credit
application or credit update; file for bankruptcy; or die. You
will also be in default if You fail to comply with the terms of
this Agreement or any other Agreement You have with Us.

If You default, We may close Your Account and require You
to pay any unpaid balance immediately, subject to applicable
law. In this Agreement and on Your Credit Card Application,
You gave Us a security interest in all individual or joint share
and/or deposit accounts with the Credit Union and authorized
Us, if You defaulted, to apply the balance in these accounts to
any amounts due. You agree We may rely on Your agreement
and authorization to, upon Your default, apply any balance to
any amounts due on Your Account.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN
CARD NOTIFICATION — If You notice the loss or theft of
Your credit card or a possible unauthorized use of Your Card,
You should write to Us immediately at 515 Mulberry Street,
Suite 100, Macon, GA, 31201 or call Us at (800) 849-8431,
seven days a week 24 hours a day.
You will not be liable for any unauthorized use that occurs
after You notify Us. You may, however, be liable for
unauthorized use that occurs before Your notice to Us. You
will have no liability for unauthorized use unless You are
found to be fraudulent or negligent in the handling of Your
Account or Card. In any case, Your liability for unauthorized
transactions will not exceed $50.
13. CHANGING OR TERMINATING YOUR ACCOUNT — As
permitted by law, the Credit Union may change the terms
of this Agreement and any attached Disclosure from time to
time. Notice of any change will be given in accordance with
applicable law. To the extent permitted by law, changes to
the Agreement may apply to Your existing account balance
as well as to future transactions.
Arizona, California, Idaho, Louisiana, New Mexico,
Nevada, Texas, Washington, and Wisconsin Residents Either You, Your spouse or the Credit Union may terminate this
Agreement at any time, but termination by You, Your spouse
or the Credit Union will not affect Your obligation to pay the
account balance plus any finance and other charges You or
Your spouse owe under this Agreement. Your obligation to
pay the account balance plus any finance and other charges
You owe under this agreement are subject to all applicable
laws and regulations regarding repayment requirements. The
Card or Cards You receive remain the property of the Credit
Union and You must recover and surrender to the Credit Union
all Cards upon request or upon termination of this Agreement
whether by You or the Credit Union.
Residents of all other states - Either You or the Credit Union
may terminate this Agreement at any time, but termination
by You or the Credit Union will not affect Your obligation to
pay the account balance plus any finance and other charges
You owe under this Agreement. Your obligation to pay the
account balance plus any finance and other charges You owe
under this agreement are subject to all applicable laws and
regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union
and You must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement
whether by You or the Credit Union.

14. AUTHORIZED USERS — Upon Your request, We
may issue additional Cards for authorized users that You
designate. You must notify Us in writing of any termination
of an authorized user’s right to access Your Account. Your
notice must include the name of the authorized user and
Your Account number and/or any subaccount number issued
to the authorized user along with the authorized user’s Card
and any convenience or other access checks issued to the
authorized user. If You cannot return the authorized user’s
Card or access checks and if You request Your Account to be
closed, We will close Your Account and You may apply for a
new Account. Alternatively, We may, at Our sole discretion,
issue You a new Account number and a new Card.
15. CREDIT REPORTS — You authorize the Credit Union
to obtain credit reports and any other information We
may need to verify Your identity and use of the Account
when opening Your Account and for any update, increase,
renewal, extension, collection or review of Your Account. You
authorize the Credit Union to disclose information regarding
Your Account to credit bureaus and creditors who inquire
about Your credit standing.
16. JOINT ACCOUNTS — If this is a joint Account, each of
You will be individually and jointly responsible for paying all
amounts owed under this Agreement. This means that the
Credit Union can require any one of You individually to repay
the entire amount owed under this Agreement. Each of You
authorizes the other(s) to make transactions on the Account
individually. Any one of You may terminate the Account and
the termination will be effective as to all of You.
17. EFFECT OF AGREEMENT — This Agreement is the
contract which applies to all transactions on Your Account
even though the sales, cash advances, credit or other slips
You sign or receive may contain different terms.
18. SEVERABILITY AND FINAL EXPRESSION — This
Agreement is the final expression of the terms and conditions
of Your Account. This written Agreement may not be
contradicted by evidence of any alleged oral Agreement.
Should any part of this Agreement be found to be invalid or
unenforceable, all other parts of this Agreement shall remain
in effect and fully enforceable to the fullest extent possible
under this Agreement.
19. ILLEGAL TRANSACTIONS PROHIBITED — You agree
that You will not use Your Card for any transaction, including
any type of electronic gambling transaction through the
Internet, that is illegal under applicable federal, state, or local
law.
Even if You use Your Card for an illegal transaction, You
will be responsible for all amounts and charges incurred in
connection with the transaction. This paragraph shall not be
interpreted as permitting or authorizing any transaction that
is illegal.

Page 3

Page 4

Page 5

Page 6

Page 7

(continued)

(continued)

(continued)

(continued)

(continued)

